2 n-ionTHE SUPREME COURT
OF THE UNITED
STATES
Case No.

Jean Coulter, Petitioner
v.
JAMSAN Hotel Management, Inc. & others,
Respondents

On Petition for Certiorari
to the Supreme Judicial Court of
Massachusetts

Petition for Writ of Certiorari

Jean Coulter, Petitioner
620 Butler Crossing #3
PMB 172
Butler, Pennsylvania 16001
412-616-9505
jeanecoulter@yahoo. com

FILED
JAN 0 4 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

received
IAN 1 <i 2021

I sincerely hope that you have never
personally experienced the sheer terror of
standing alone in a hotel room while a stranger
attempts to break-in - especially when that
stranger is well aware that you are alone, hiding
inside. But I genuinely believe that each one of you
can understand the extreme terror which I
experienced during my stay at the Quality Inn &
Suites in Lexington, MA.
Further, I hone that neither you nor you loved
ones will ever experience the utter desperation which
I felt - upon discovering that the local police had no
intention of taking even the most basic steps to
protect me from being further victimized by these
thugs - who used their “official” status to assure that
the hotel's Desk Supervisor would not be forced to
turn away a member of a newly-enlarged tour groupbecause they felt it's wasn’t fair for me to stay when
they needed the room for new guests coming in!
Surely though, I think that you will agree that
I must be allowed to recover at least for the economic
losses that I suffered that night... even if it means
that a couple of “dirty cops” would be “called out” for
their decisions to assist in the crimes being
committed at the hotel that day!
___
QUESTIONS PRESENTED_________
a.
1. Was Coulter denied Due Process because of Bias?
2. Is Pervasive Bias responsible for the denial of Due
Process to Coulter and others?
2. Is the new Massachusetts Police Accountability
(POST) Commission destined to fail - unless the
commission assures that the majority of its members
are from outside of the “Justice System”?

PARTIES TN THE COURT BELOW
b.
Jean'Coiilter
Petitioner
' \ Jamsan''Hotel Management, Inc.,
- ^Respondents
Amisha II L.L.C., Amisha L.L.C, Aryan Hospitality
L.L.C, Kenneth J Biagioni, Hartwell Hospitality
•
' L.L.C, Jamsan Investments L.L.C, MEERA LLC,
Ashok Patel, Dilip Patel, Hitest Patel, MEERA
Hospitality LLC, Kamlesh Patel, Navin Patel, Nikul
\
Patel, Rajeshkuinar Patel,-PAYAL Hotel LLC >
i. < RONIT Hospitality 'll LLC, Rushil Hospitality LLC,
Ayushi L.L.C, James Berry, Choice Hotels, John Doe,
John Doe,'JHANVI Hospitality LLC, JHM Fortune
*. .
* LLC, TJHM Phase II LLC, JHM Village LLC,
Lexington Mexican Restaurant Group Inc, Lexington
Police Dep artment; Lexington Police Office Evelyn,
Lexington Police Officer-Papia, MEENA Investments
LLC, Michael G Milazzo, Archit Patel, Hitest Patel,
- ' Kamleshkumar Patel, Police Lieutenant Mazerall,
Quality Inn &TSuites, SHIVPAR Inc.,
Travelocity.com, and Unknown Lexington Police
i
* it
Officer L' . V,

. rr fl t

f.

t

t
!

I

i

PT?nr,F,EDTNGS TN THE LOWER COURTS
Massachusetts Superior Court
r., ■ P» i Case.No. 1681CV02632
^ ^-Coulter, Jean

N.. .
r

»

i

V.
.

JamsanUotel Mdhagement Inc..et. al.
05/22/2018 Final Judgment. “Fails to state a claim”
■3.-*.*. {'

. ' . «■*, ivlvi

•
-a:
r
?hv ’i- - .n .art. .

\t!i ' the

1

i
i
r.

u.

11.
12.
13.
14.
15.
16.
17.
18.
19.
19.
20.
21.
22.
23.
24.

Massachusetts Chapter 140, Section 7
Massachusetts Chapter 140, Section 12C
Massachusetts Chapter 266, Section 17
Massachusetts Chapter 223, Section 13
Motion and Memorandum - Change of
Venue
Fourth Amended Complaint
Request for Further Appellate Review Raising Pervasive bias (portions)
Police Defendants’ Motion to Dismiss in
the federal court
Complaint for Civil Action in the U.S.
District Court
Contracts - Confirmation of Reservation
Letter by Defendant Biagioni
Hand-written Order “denies written
(dated 6/19/18)
Motion to Amend the Findings in the
U. S. District Court
Motion for Reconsideration
Motion for Recusal

TABLE OF CITATIONS
Ashcroft v. Iqbal, 556 US 662 - Supreme
Court 2009
Bose Corp. v. Ejaz, 732 F. 3d 17 - Court of
Appeals, 1st Circuit 2013
Bosque v. Wells Fargo Bank, NA, 762 F.
Supp. 2d 342 - Dist. Court, D.
Massachusetts 2011
Chamberlain v. Chandler, C.C. D.Mass., 5
Fed.Cas. p. 413, No. 2575

v.

33a.
34a.
35a.
36a.
37a.
43a.
70a.
75a.
87a.
101a.
113a.
118a.
119a.
125a.
131a.

19., 21.
13., 14.
10.
13.

Crawford v. Hotel Essex Boston Corporation,
143 F. Supp. 172 - Dist. Court, D.
Massachusetts 1956
12.,
Frewen v. Page, 238 Mass. 499, 503, 131
N.E. 475, 476, 17 A.L.R. 134
Marino v. Hyatt Corp., 793 F. 2d 427 - Court
of Appeals, 1st Circuit 1986
Vadnais v. NSK Steering Sys. Am., Inc., 675
F.Supp.2d 205, 207 (D.Mass.2009)
Weiler v. PortfolioScope, Inc. 12 N.E.3d 354, 361
(Mass. 2014)

vi.

13.
13.
13.
11.
14.

d

REPORTS OF OPINIONS AND ORDERS
The decision of the Appeals Court of
Massachusetts is recorded at 97 Mass. App. Ct. 1124
(2020) (Case No. 19-P-951 in the state appeals court),
only states:
“June 12, 2020.
Judgment affirmed. Orders denying motions
to amend the findings and for change of venue
affirmed.”
The state’s highest court, the Massachusetts
Supreme Judicial Court, denied review however, so
there is no report of that decision.
.tttrtsdTCTTONAL statement
All of the matters under consideration at this
time were denied review in the Massachusetts
Supreme Judicial Court on August 5, 2020.
Jurisdiction in this Honorable Court is
pursuant to:
28 TT s Code S 1257- State courts;
certiorari
(a) Final judgments or decrees rendered
by the highest court of a State in which a
decision could be had, may be reviewed by the
Supreme Court by writ of certiorari where the
validity of a treaty or statute of the United
States is drawn in question or where the
validity of a statute of any State is drawn in
question on the ground of its being repugnant
to the Constitution, treaties, or laws of the
United States, or where any title, right,
privilege, or immunity is specially set up or
claimed under the Constitution or the treaties
or statutes of, or any commission held or
authority exercised under, the United States.
e.

1.

f.

CONSTITUTIONAL PROVISIONS,
STATUTES & ORDINANCES

Amendment XIV - Section 1,
of the United States Constitution
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the state
wherein they reside. No state shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall
any state deprive any person of life, liberty, or
property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of
the laws.
Amendment V
of the United States Constitution
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment
or indictment of a grand jury, except in cases arising
in the land or naval forces, or in the militia, when in
actual service in time of war or public danger; nor
shall any person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall
private property be taken for public use, without just
compensation.
Massachusetts Rules of Civil Procedure
Rule 77; Courts and clerks

2.

(c) Filing date of all papers received by clerk
The clerk shall date-stamp all papers
whatsoever received by him, whether by hand or by
mail. Any paper so received, whether stamped or not,
shall be deemed to have been filed as of the date of
receipt. If at any subsequent time, any party
disputes the fact of such filing, the court shall
determine the question, taking whatever evidence it
deems appropriate. Proof of mailing shall constitute
prim a facie proof of receipt.

TiAral T,aws Part IV Title I Chapter 266
Section 120: Entry upon private property after
being forbidden as trespass; prima facie
evidence: nenalties: arrest; tenants or
occupants excepted
Section 120. Whoever, without right enters or
remains in or upon the dwelling house, buildings,
This section shall not apply to tenants or occupants
of residential premises who, having rightfully
entered said premises at the commencement of the
tenancy or occupancy, remain therein after such
tenancy or occupancy has been or is alleged to have
been terminated. The owner or landlord of said
premises may recover possession thereof only
through appropriate civil proceedings.
General Laws Part I Title XX Chapter 140
Section 7: Refusing to provide for travelers

3.

Section 7. An innholder who, upon request, refuses to
receive and make suitable provision for a stranger or
traveler shall be punished by a fine of nor more than
fifty dollars.
General Laws Part I Title XX Chapter 140
Section 12Q; Refusal of accommodation in hotel
to persons acting in disorderly manner;
damage deposits
Section 12C. (a) An innkeeper may refuse to admit or
refuse service or accommodation in the hotel to a
person who: while on the premises of the hotel acts
in an obviously intoxicated or disorderly manner,
destroys or threatens to destroy hotel property, or
causes or threatens to cause a public disturbance, or
refuses or is unable to pay for the accommodations or
services. An innkeeper may require the prospective
guest to demonstrate an ability to pay. An innkeeper
may require a parent or guardian of a minor to
accept liability for the proper charges for the minor's

General Laws Part IV Title I Chapter 266
Section 17: Entering without breaking at night;
breaking and entering in day time; weapons^
punishment
Section 17. Whoever, in the night time, enters
without breaking, or breaks and enters in the day
time, a building, ship, vessel, or vehicle, with intent
to commit a felony, the owner or any other person
lawfully therein being put in fear, shall be punished
by imprisonment in the state prison for not more
than ten years. ...

4.

STATEMENT OF THE CASE
Events which Lead to the Filing of this Civil Suit
Coulter planned a lengthy trip to the Boston
and Coulter made pre-paid non-cancellable/nonchangeable reservations for the period extending
from September 2, 2013 through October 16, 2013.
(47a.)
Coulter approached the hotel’s desk during the
late morning (49a.) and that moment Coulter first
came into contact with Defendant Biagioni. Coulter
asked for the hotel’s shuttle - but rather than a
cordial conversation, Biagioni instead displayed
behavior can only be described “completely
irrational”. (50a.) Out of the blue however, Biagioni
began screaming at some unseen person to not speak
so loudly. (51a.) Coulter attempted to continue
their discussion about the shuttle. Suddenly though.
Biagioni looked directly at Coulter and told her that
she must immediately check-out of the hotel because
she was being so disruptive. (52a.) Coulter calmly
explained that she had pre-paid for her reservation
and there were literally weeks left before Coulter
was scheduled to leave. When Biagioni’s inexplicable
behaviors continued, Coulter asked to discuss the
issue with the hotel’s Manager, and Biagioni claimed
that he was the Manager of the hotel. (Coulter has
since learned that this was a lie.) (52a.)
So, Coulter searched the lobby’s brochures for
the phone number for Defendant Choice Hotels. But,
even Coulter looking around the lobby for a phone
number for Choice Hotels was enough to result in
Biagioni screaming at Coulter, and Biagioni
g.

5.

threatening to have Coulter arrested for
Trespassing. (54a.)
In order to escape Biagioni’s threats and
erratic behaviors. Coulter moved outside to continue
on her phone call.
Coulter decided to look up the Massachusetts
Trespassing Laws, to make certain that Biagioni
could not actually attempt to have Coulter arrested,
and quickly saw that it is inapplicable to residential
situations. (54a.) Coulter was concerned though
because Biagioni was acting irrationally, so she
called the Lexington Police to see if Biagioni could be
convinced to react more reasonably to the situations
at hand. (54a.)
When the Police Officer eventually arrived at
Coulter’s door, it quickly became obvious that
Defendant Officer Evelyn had first spoken with
Biagioni - as Officer Evelyn stated that he would not
assist the hotel in forcing Coulter to leave, unless the
hotel decided to have Coulter charged with
trespassing! (56a.) Coulter briefly explained her
research on the Massachusetts law, and after just a
moment’s thought, the Officer said he agreed, and
left the area. (56a.)
Eventually the phone in Coulter’s room rang.
(57a.) It was a female employee of the hotel saying
she’d been asked to assist with Coulter’s departure
from the hotel. Coulter explained that she had a
lengthy pre-paid reservation and the call soon ended.
Just a short time later, the phone rang again and
this time it was Biagioni calling, once again ranting!
(57a.)

6.

Coulter told Biagioni that she not to call
again, and hung up the phone. But, Biagioni kept
calling back - at first Coulter just let the phone ring,
but eventually Coulter took the phone off the hook
before Biagioni had re-dialed.
A short period of time passed — when suddenly
Coulter heard very loud pounding on the door to
Coulter’s room! (57a.) Coulter moved the curtain
aside (to see who was at the door) - and Coulter
recognized Biagioni, and an unknown man with him.
Coulter called through the still closed door, asking
what the two men wanted. Biagioni demanded
that Coulter immediately open the door to let
the two men into her room. Coulter refused, and
told them to leave her in peace. (57a.) But the men
did not leave they kept bellowing their demand that
she open the door. Soon, the other man (“Adam”)
eventually threatened and then did use his “passkey”
to open the door as far as the “night latch” permitted.
(57a.)
While the door was still open (and Coulter was
frantically looking for the phone number for the local
police as 911 wouldn’t work) Adam called out to get
Coulter’s attention so she would see a finger wiggling
through the opening - to make certain that Coulter
was aware just how thoroughly her safety was being
threatened. (57a.) Before leaving her door, Adam
yelled out that the pair would be returning
with bolt cutters to force their way into
Coulter’s room! (57a.)
Coulter again called the police, but the
dispatcher clearly did not want to send an officer out
again, until Coulter explained about the threat to
7.

return with bolt cutters to complete the break-in.
(58a.)

Earlier in the day, Coulter had deduced that
when Officer Evelyn came in response to her call he
had first stopped to speak to the hotel employees
(Biagioni and Adam). This time, Officer Evelyn had
brought another officer with him (Officer Papia) as
well as bringing Biagioni and Adam to
Coulter’s door! (59a.) Coulter explained
everything that had gone on since the last time the
police had been there, and no one disputed anything
that Coulter said. (60a.) However, Biagioni claimed
that Coulter had agreed to leave the hotel by 3:00 supposedly during her call with Choice Hotels that
morning. (Yet, 2 days later Biagioni wrote in a letter
(which was required by Choice Hotels), that Officer
Evelyn had told him I’d agreed to leave by 2:00.)
Coulter vigorously denied any such agreement.
Officer Evelyn then started claiming that
Coulter absolutely must leave because Evelyn
“knew that Coulter had not been paying the
charges for her room”. (59a.) Coulter told the
officers that she could nrove that the charges
were pre~paid for almost another full month
hut neither officer had any interest in seeing
the proof. Instead Officer Papia insisted that
Coulter must check-out because the hotel had other
people scheduled to be arriving, and said that he felt
“it wasn’t fair” for Coulter to stay because the hotel
needed her room for those newly arriving guests.
(60a.)
Eventually Coulter realized she could not
possibly be safe in her room (as the police had chosen
8.

to join in with Biagioni), Coulter packed a small bag
with valuables and went to Logan airport to pick up
a van to use to move her belongings to some other
hotel for the night and to who knew where for the
remaining weeks of her trip. (63a.)
Prnr.f>edings in the State Courts
In the trial court Coulter filed Motion for
Change of Venue, due to serious issues with “lost” or
delayed docketing of filings (27a.) and Recusal (18a.)
- citing actions by Court Records (venue) and the
State Court, which clearly favored defendants.
In the lower appellate court, the Panel
specifically affirmed the Denial of Change of Venue
even though their entire decision (beyond “boiler­
plate” information) was less than 300 words.
The Petition for Further Appellate Review in
the state’s court of discretionary appeals, also raised
the issue of bias in favor of members of the Justice
System seems universal among all members (71a.)

9.

h.

ARGUMENT - PERVASIVE BIAS

In order to prove that Coulter has been denied
Due Process due to Pervasive Bias, Coulter must
first prove that the decision by the Trial Court is
invalid. Indeed, Bias is evident in the Trial Court s
sparsely-worded determination that Coulter s
Complaint “fails to state a claim ...
“... Even as revised, the [proposed Fourth
Amended] Complaint fails to state a claim
upon which relief can be granted (and
certainly not relief of $25,000 or more). This
case is hereby dismissed, with prejudice.
(5a., 6a.)
So, Coulter will now prove that the decision by the
Trial Court is/was “invalid” - or, in other words, that
Coulter’s Complaint sufficiently pled at least one
Claim “upon which relief can be granted”.
Breach of Implied Contract
While Coulter believes she could prove that
multiple Claims are/were sufficiently pled, Coulter
now argues only that the Claim of Breach of Implied
Contract, with respect to the actions by Defendants
Biagioni and Adam - was sufficiently pled to require
that Coulter’s Complaint be permitted to be continue
for preparation for trial.
Coulter Has Sufficiently Pled
The Elements Of A Contract
In order to sufficiently plead “Breach of
Implied Contract” (and/or “Breach of Contract), the
elements of a contract must be pled - as explained in
Bosnue v. Wells Fargo Bank. NA, 762 F. Supp. 2d
342 - Dist. Court. D. Massachusetts 2011:

10.

The elements of a valid contract are an offer,
acceptance, and an exchange of
consideration or a meeting of the minds.
See Vndnais u. NSKSteering Svs. Am.. Inc.,
fi7S F.Supp.Sd 205. 207 (D.Mass.2009),
(emphasis added)
Offer. Acceptance & Consideration
Coulter’s Complaint specifically states that
she went on Travelocity.com and saw an offer of a
hotel room, at a “Top Secret Hotel , for the dates
from September 2, 2013 to October 16, 2013, at the
rate of $52.55 per night (plus taxes and fees) listed
by Travelocity on their site. Coulter decided to
accept the offer, and completed the “paperwork
including authorization of the charges for the full
amount of the trip, to be immediately paid by
Coulter’s credit card - thereby completing the
compensation section of their Contract. The
“reservation confirmation” pages show Coulter s
payment of the full amount of the hotel s charges as
well as the taxes (and fees charged by
Travelocity.com), as well as the basic terms of their
“Contract”. (101a. - 112a.)
• • • Breach of Contract,
Breach of Implied Contract...
1.)
On August 21 and 23, 2013, Pro Se
Plaintiff JEAN COULTER ("Coulter") prepaid
for hotel reservations ... for the period from
September 2, 2013 through October 16, 2013...
for a room at Defendant QUALITY INN &
SUITES - HISTORIC LEXINGTON, MAI
BOSTON- NORTH ("Quality Inn"). (43a.)

11.

By pre-paying the full amount that the “offer”
requires, Coulter has sufficiently pled (a) the offer, ,
(b) the acceptance and finally (c) the consideration
(or meeting of the minds) have all been pled and that
Coulter’s obligations have been met (as Coulter s
steps in permitting her credit card to be immediately
charged for the reservation) as completed all of
Coulter’s obligations of their contract). Therefore,
only the Defendant Hotel’s obligations in relation to
the contract remained to be completed.
Tprms Of The Contract Were Breached
The actual written contract (as emailed to
Coulter at the time that Coulter made (and pre-paid
for) the reservation) only minimally enumerates the
Parties rights and obligations - for example, the
contract does not mention that there is to be
electrical service is included. Additionally, Case
Law from Massachusetts (and other states),
explains that guests at a hotel have
“contractual rights” that extend beyond the
hotel's obligations to provide a bed for the guest
to sleep in. As explained in Crawford v. Hotel
Essex Boston Corporation. 143 F. Supp. 172^
Pi St. Court. D. Massachusetts 1956, (citing Frewen jx
Page. 238 Mass. 499) Quality Inn & Suites (the
defendant hotel) is/was obligated to assure Coulter’s
(and every other every registered guest’s).
“contractual rights” to an entitlement to immunity
from • • » personal abuse and unjustifiable
interference, whether exerted by the defendant
or his servants, or those under [the hotel s]
control.":
“However, there is another principle to be
taken into consideration. The plaintiff was a

12.

registered guest in the hotel. This gave him
contractual rights, greater than those of the
usual business invitee. He was entitled to
"immunity from rudeness, personal abuse and
unjustifiable interference, whether exerted by
the defendant or his servants, or those under
his control." Frewen v. Paee, 238 Mass. 499,
503. 131 N.E. 475. 476. 17 A.L.R. 134. The
court went on to say, 238 Mass, at page 504,
131 N.E. at page 477;
"The guest is entitled to respectful and
considerate treatment at the hands of
the innkeeper and his employees and
servants, and this right created an
implied obligation that neither the
innkeeper nor his servants will
abuse or insult the guest, or engage
in any conduct or speech which may
unreasonably subject him to
physical discomfort, or distress of
mind, or imperil his safety."
See also, Chamberlain v. Chandler, C.C.
D.Mass., 5 Fed.Cas. p. 413, No. 2575. ...”
(emphasis added)
See also Marino v. Hvatt Corn., 793 F. 2d 427 Court of Anneals. 1st Circuit 1986.
In order to show that Defendants’ Breached
the Contract, the Complaint must sufficiently plead
(1) that a valid contract between the Parties existed,
(2) that the plaintiff was ready, willing and able to
perform, (3) that Defendant(s) breached the contract
and finally (4) that Plaintiff sustained damages, s
explained in Bose Corn, v. Eiaz. 732 F. 3d 17 Court of Appeals. 1st Circuit 2013 :

13.

under Massachusetts law, a breach of
contract claim requires “the plaintiff to show
that (1) a valid contract between the parties
existed, (2) the plaintiff was ready, willing,
and able to perform, (3) the defendant was in
breach of the contract, and (4) the plaintiff
sustained damages as a result. Bose Corp. 14
739. F.3d 17. 21 (1st Cir. 2013); Wejlerv^
Portfolio Scope. Inc. 12 N.E.3d 354. 361 (Masjjs.
2014) (“covenant of good faith and fair
dealing is implied in every contract. )....
(emphasis added)
Coulter has already argued the existence of the
Contract (above). And, the same paragraph that is
quoted above :
1.)
On August 21 and 23, 2013, Pro Se
Plaintiff JEAN COULTER ("Coulter") prepaid
for hotel reservations ... for the period from
September 2, 2013 through October 16, 2013
for a room at Defendant QUALITY INN &
SUITES - HISTORIC LEXINGTON, MA/
BOSTON- NORTH ("Quality Inn"). (47a.)
also explains that Coulter had completed her portion
of the Contract, as the reservation was “prepaid”. So
“(2) the plaintiff was ready, willing, and able to
perform” for the portion of the Contract related to
Coulter’s obligation to pay, was sufficiently pled in
paragraph #1. Coulter (I assume) also is obligated to
take reasonable precautions, just as the hotel is/was
required to assure Coulter’s safety from attacks by
the “Innkeeper” or “his servants” - which Coulter’s
Complaint does, in detail in paragraphs #13 and #14.
(55a. - 57a.):
“Claim 6

Fraud,

14.

Breach of Contract,
Breach of Implied Contract,

• ••

Parties beins sued in relation to this Claim
Quality Inn & Suites — Historic Lexington,
MA/' Boston- North, Kenneth J Biagioni,
Lexington Police Department, Officer Evelyn,
Unknown "Desk Agent " of Quality Inn &
Suites, Unknown Employee of Quality Inn &
Suites (/mown only as Adam) as well as all
Corporate Defendants ...
Farts Upon Which The Claim Is Based
13.) After the Police Officer left,
Coulter began receiving harassing and
threatening calls from Defendant Biagioni and
another desk employee UNKNOWN "DESK
AGENT' OF QUALITY INN & SUITES
("Unknown Desk Agent") - demanding that
she leave immediately. Soon after Coulter
began to ignore the ringing phone, she heard a
very loud pounding on the door to her
hotel room. Voices outside the door claimed
to be Defendant Biagioni and UNKNOWN
EMPLOYEE OF QUALITY INN & SUITES
(KNOWN ONLY AS ADAM) ("Adam"). Those
voices demanded that Coulter open the
door. And that she soon leave the hotel!
When Coulter refused to open the door —
afraid for her own safety, the two Defendants
threatened to, and then did, use their "key" to
attempt to open the door. Fraud. Personal
Injuries related to various crimes bv ... Breach
of Implied Contract.all Massachusetts-

15.

based Corporate Defendants and Defendants
Biagioni and Unknown Employee known only
as Adam
14.) Because the "night latch" was
still on, Defendants Biagioni and Adam were
unable to enter. But, shortly, the voice later
identified as Adam, stated that they intended
to return after they retrieved their bolt cutters
- so they could force their way in to the room.
Breach of Implied Contract. ... all
Massachusetts- based Corporate Defendants
and Defendants Biagioni and Unknown
Employee known only as Adam. (57a.)
The Complaint describes that Biagioni and Adam
came to Coulter’s room and demanded that she open
the door to let the two men into her room. And, the
Complaint continues, pleading that when Coulter
refused to go to the door and open it, “the two
Defendants threatened to, and then did, use their
"key" to attempt to open the door” - and further,
upon seeing that the “night-latch” was on, the two
men left to “retrieve their bolt-cutters” to force their
way in! So, it is readily apparent that despite
Coulter’s best attempts to protect herself, the
Complaint has pled sufficient facts to have met the
obligation to describe “(3) that Defendant(s) breached
the contract” when Defendants Biagioni and Adam
(both employees of the Hotel), undertook the actions
described in paragraphs #13 and #14 (and the
information about the parties and claims that
precede those paragraphs under Claim 6).
Finally, to pled that the Implied Contract was
breached, the Complaint also must have pled
sufficient facts in relation to “(4) the plaintiff
sustained damages as a result of the actions by

16.

Biagioni and Adam. Indeed, in Claim #10,
paragraph #19, the Complaint plead that Coulter
had to travel to the airport to pick up a rental mimvan:
“ Facts Upon Which The Claim Is Based
19.) Eventually, at approximately 3:00 P.M.
Coulter succumbed to the pressures exerted by
the Defendant Officers - at the clear request
of the Hotel Defendants. Coulter took one
small bag, and went to the airport to pick up a
rental mini-van. • • • Breach of Implied
Contract...” (63a.)
While the rental of the mini-van was not the only
“damage” “sustained” by Coulter, pleading one
damage is sufficient to show that Coulter sustained
damages as a result”. So, Coulter s Fourth Amended
Complaint has sufficiently pled all four elements
necessary to plead a Breach of Implied Contract.
Conclusion
Because Coulter’s Fourth Amended Complaint
sufficiently pled the facts necessary to prove both the
existence of a Contract between the Parties, as well
as the facts that are necessary to prove that
Defendants’ Breached their Contract - the Dismissal
of the Fourth Amended Complaint by the State
Court was invalid. So, the Denial of Due Process
because of Bias has been proven.
However, Coulter also has asked This Court to
determine if Pervasive Bias is the reason that the
State Court (who had absolutely no known personal
knowledge of Coulter), produced such a clearly
invalid and Biased determination.

17.

The «mirr.ft Of Bias Is Unrelated Any
Knowledge Of Coulter - And Is Instead Is
PFRVASIVE BIAS FAVORING “JUSTICE
gygTF.M” DEFENDANTS
Although there is no shortage of Case Law on
the issue of Pervasive Bias, almost without exception
the decision in each of those cases determines that
there is insufficient evidence of Pervasive Bias in
that particular case.
In this case, Coulter is arguing that it is Bias
which favors (or benefits) the Defendants, which is
the “issue” which Coulter has experienced and which
was the exclusive reason for everything that occurred
in the Instant Matter. Despite the fact that Coulter
has not discovered any Case Law which concerns
this particular form of Bias, it certainly
appears to be prevalent anytime that one or
more of the Defendant(s) in a Civil Case, are
members of the “Justice System” - as is the
situation in this case (as Coulter’s Complaint
includes several officers from the local Police
Department (Officers Evelyn and Papia, etc.)).
Sppmfic Examples of the Pervasive Bias favoring “Members of the Justice System” as.
found in the federal court
Coulter initially filed her Complaint in the
federal court, based primarily on the hope that by
removing the matter from the hands of the state
court judges (who rely on the testimony of these
same members of Law Enforcement in their
courtrooms) — that in this manner, Coulter might be
able to find a truly “impartial” jurist. This
however, was not what Coulter found in either
the District Court or the Circuit Court.

18.

The first example of blatant Bias/Pervasive
Bias on the part of members of the “Justice System
is found in the Electronic Order filed on January 27,
2016 by Judge Richard G. Stearns of the U.S.
District Court for Massachusetts in case l:15-cv13355, which states :
With regard to Officers Evelyn and Papia,
Coulter recounts their response to her (and
the innkeeper's) repeated 911 calls to the
Lexington Police Department. The innkeeper
asserts that Coulter was trespassing Coulter
contends that the innkeeper was ejecting her
from the hotel against her will when she had
prepaid for a room. ... Officers Evelyn and
Papia investigated allegations of trespass.
Based upon the facts as set out in the
Complaint, they had probable cause to believe
that a trespass had occurred. See Mass. Gen.
Laws ch. 266, § 120. Speaking with the
innkeeper prior to interviewing Coulter was
the responsible and prudent course for an
officer called to investigate a reported crime.”
(10a.) (emphasis added)
However, Coulter’s Complaint never alleged
anything even vaguely like the set of circumstances
which the Federal Court cited - however, Counsel for
the Police Defendants did!. Thus, the District Court
chose to accept as true the “alternative facts”
suggested bv Defendants’ Counsel in their Motion to
Dismiss rather than accepting as true the facts that
Coulter alleged in her Complaint - which the Federal
Court most certainly knows is required by Rules of
Court as well as Ashcroft v. Iqbal) Those
“alternative facts” simply and entirely untruthfully/

19.

falsely assert that Coulter’s Complaint “alleges” that
there were calls to the police from both Coulter and
the hotel. It is obvious that the judge chose to
pretend that Coulter had alleged facts which might
have “exonerated” the Police Defendants IF indeed,
Counsel’s claims were true :
“There is no requirement for an officer to
believe one side of a reporting party over
another reporting party - the Complaint
alleges that both parties called 911. (Plaintiffs
Complaint, f 18). (83a.)
However this claim by Defendants Counsel, which
the Federal Court so swiftly adopted, is, in fact,
clearly contradicted by the very wording of Coulter’s
Complaint (61a.) which instead, describes how, upon
being confronted with the fact that (all 4 of the
Defendants) had been caught “in the act” Defendant Evelyn swiftly concocted an He to
excuse the officers’ choice to first speak with
the Criminals (Defendants Bagioni and Adam)
rather than coming to the aid of their victim And the officers’ Counsel falsely described Coulter’s
Complaint hoping the Federal Court would adopt the
assertion that “... there had first been a call from the
Hotel, prior to my call.” :
“18.) ... Coulter stated that it was clear that
on both occasions, Defendant officer Evelyn
had chosen to speak first with the criminals
rather than respond to the cry for help from
the victim - and at that moment, he [Evelyn]
claimed that there had first been a call from
the Hotel, prior to my call. However, no
mention of that call was made by the
dispatcher who was obviously reluctant to
send out officers again for the continuing

20.

problem with these criminals - and further
there is no evidence to support the claim
of a prior call by the Defendants. ^
(emphasis added) (61a.)
This court’s decision in Ashcroft v. Iabal. 556
ITS 662 - Supreme Court 2009 clearly explains that
the District Court was required to accept as true the
well-pled allegations in Coulter’s Complaint, and
also it was required to disregard the assertions
advanced by Police Defendants Counsel.
for the purposes of a motion to dismiss we
must take all of the factual allegations in the
complaint as true ...”
Indeed, it is abundantly clear that Coulter’s
Complaint is not alleging that the hotel had also
called the police, but rather Coulter’s Complaint has
clearly “called out” Defendant Evelyn for his
conscious choice to fabricate a story (he) about a
prior call, in an obvious attempt at coverinff-up
the criminal actions bv the Police Defendants :
“[Evelyn] claimed that there had first been a
call from the Hotel, prior to my call. However,
no mention of that call was made by the
dispatcher who was obviously reluctant to
send out officers again for the continuing
problem with these criminals - and further
there is no evidence to support the claim
of a prior call by the Defendants.... (61a.)
(emphasis added)
While the First Circuit’s decision does not
directly “benefit” the Police Defendants, it clearly
does so indirectly instead — as they must give
deference to the Trial Court’s decisions. And,

21.

perhaps the fact that the rules which govern the
decision-making process of the appellate courts do
not merely “encourage” subsequent judges to give
deference to the determinations of the Trial Court indeed, they are consciously designed to be that way.
And, this identical “issue” of deference, becomes
more evident in the decisions in the state courts.
«ppr»ifip Examples of the Pervasive Bias_r
favoring “Members of the Justice System” as
found in the state courts
In the trial court in Middlesex County, Coulter
experienced documented examples of the effects of
Pervasive Bias, through the actions/attitudes of the
employees in department of Court Records as
well as other court employees who are
responsible for assuring that the court s
I found it necessary to file a Motion requesting
Change of Venue (37a. - 42a.) exclusively because
the delays, confusion and general frustration caused
by the problems I experienced in simply attempting
to have my filings docketed :
On April 23, 2018, Coulter mailed
1.)
Emergency Motion for Extension of Time to
File Amended Complaint as well as Motion to
Compel Discovery. Although the Post Office
has never returned the envelope which
Coulter mailed on April 23, that "copy" of the
document was never filed ...
Coulter re-mailed both of the
2.)
documents (again in one envelope). Civil
Records finally docketed, on May 3, 2018,
Coulter's Emergency Motion for Extension of
Time, while it took until May 7, 2018 for the
Motion to Compel Discovery to be docketed -

22.

despite both documents having been mailed in
the same envelope!
Indeed, the second mailing of the
5.)
Fourth Amended Complaint was never even
the document
docketed until May 22, 2018,
having been signed for by "Beatrice Van
Meek", "Sessions Clerk" on March 16, 2018 ...
Coulter has repeatedly spoken
6.)
with employees of Civil Records, and given
conflicting stories as to the procedures of Civil
Records. ... never even time-stamps Amended
Complaints until after all outstanding Motions
have been ruled on! ...
... Defendants Counsel, on April
8.)
4, 2017 claimed to have discussed their
decision to ask the original Trial Court to rule
on their Motion to Dismiss, with someone in
the Trial Court's office (presumably the same
"Session Clerk"), earlier that same week. And,
indeed, in April 2017, the Trial Court as well
as a woman (believed to be Van Meek) both
attempted to make Coulter accept a ruling on
April 4, 2017, despite Coulter vehemently
complaining that she had been given
absolutely no notice of the Motion to Dismiss
being set for argument on any date ...”
• M

Indeed, as the result of the departments’ repeated
“loss” of documents which Coulter had sent by
differing independent Courier Services, Coulter s
filings repeatedly came up missing, and thus placed
Coulter’s case in jeopardy as she narrowly escaped
dismissal on the basis of failure to comply with
deadlines imposed by the Court.

23.

It should also be noted that the decision in the
Appeals Court specifically cites the delayed filing of
pertinent documents. (3a.)
Thus, the issue of Pervasive Bias was
raised in the state court, both in the Trial
Court and in the Appeals Court in Coulter’s
Motion for Change of Venue (as well as
Coulter’s motions (plural) for Recusal). In each
court, the Motion was dismissed without comment of
any form.
It is abundantly clear that none of the
employees of the Middlesex County Court had
personal animosity toward Coulter, except that
which was “fed” to them by other, “higher” employees
of the court - as Coulter had only visited friends in
Massachusetts on two (2) occasions since she moved
away from the state more than thirty (30) years
earlier. So, it is inconceivable that any employee of
the department was independently motivated to take
the steps necessary for such frequent violation of
Coulter’s Right to Due Process, as occurred in the
Court Records department. It is therefore only
reasonable to assume either that the Middlesex
County Court exists in a perpetual state of utter
chaos - or that one or more “outside” forces expressed
an interest in Coulter’s case being intentionally
“tanked” - and that that person or persons found
“receptive ears”. And, the fact that the Trial Court(s)
who were authorized to make decisions in Coulter’s
case, never succeeded in “correcting the recurring
situation, only adds credence to Coulter’s
assertions, of the extreme and Pervasive Bias
against Coulter and indeed anyone who dared
to seek Justice from a Member of the Justice
System!

24.

F.-ramples of Pervasive Bias - as found in the
Massachusetts Appeals Court
The only communications coming from the
Appeals Panel, is the three page decision which
essentially includes nothing more than “boiler-plate”
listing of parties, etc. with the exception of the shorty
240 words, “discussion” (3a. - 4a.) which includes
two blatant examples of bias.
Still though, yet another example of bias
exists in the “boiler plate information , specifically in
the footnotes on page 1 of the decision which falsely
states :
“2 Coulter's allegations stem from an
unsatisfactory stay at the Quality Inn &
Suites in Lexington, where she was removed
from her room based on extensive use of the
hotel's complementary shuttle service.”
At no point however, has any Party or any one of the
judges who heard the matter in either trial court,
ever asserted that Coulter might be abusing the
“shuttle service”! So this “determination” exists for
some reason other than the legitimate determination
of the case by the Panel.
I have begun referring to this type of
nonsensical and irrelevant statements - or baseless
conclusion - by either an attorney or a judge, as
“invoking the Secret Handshake”. It is readily
apparent that these comments/conclusions are
exclusively untruthful and their almost comical
nature are clearly intended to alert any subsequent
jurists that the case is one involving either a Member
of the Justice System or someone else who “deserves”
some form of “Special Consideration” (i.e. if the
defendants are not members of the Justice System
then they are part of some other “favored” group,

25.

maybe a politician or a particularly wealthy
individual or a celebrity, ...)•
Moving on to the two blatant examples of bias
which actually exist in the Panel s short Discussion
- the next blatant example of bias forms the basis of
the entire “decision”, as the Panel asserts that the
Trial Court’s Order which (in its entirety) states :
“05/21/2018 Even as revised, the Complaint
fails to state a claim upon which relief can be
granted (and certainly not relief of $25,000 or
more). This case is hereby dismissed, with
prejudice. Thomas P. Billings”
is actually a ruling on “her motion to extend the
deadline to file an amended complaint and not on the
fourth amended complaint itself. ... (3a. — 4a.) And,
based on their “conclusion” (that the dismissal of a
complaint because it fails to meet the statutory
minimum value of a case in the state s Superior
Court”), the Panel then determines that the Trial
Court did not abuse its discretion in a determination
involving only “case management :
“... the second judge was ruling on her motion
to extend the deadline to file an amended
complaint, and not on the fourth amended
complaint itself. ‘Case management is
committed to the discretion of the ... judge,
and we review the decision for an abuse of
discretion.’ 63 Mass. Eagle Fund Ltd, v.
Sarkans, App. Ct. 79, 85 (2005).
Here there was no abuse of discretion.
The reasons for denying Coulter’s motion to
extend the deadline were well stated. ...”
The second example of blatant bias is displayed at
the very end of the Panel’s “determination that the
Trail Court ruled appropriately as the “reasons for

26.

denying Coulter's motion to extend the deadline were
well stated”. It must be noted that there has never
been any explanation of any form (from the
Trial Court) beyond the 31 words contained in
the hand-written comment (dated 05/21/2018),
so the Panel’s “determination” that “The
reasons for denying Coulter’s motion to extend
the deadline were well stated” is most certainly
another invocation of the Secret Handshake :
“05/21/2018 Even as revised, the Complaint
fails to state a claim upon which relief can be
granted (and certainly not relief of $25,000 or
more). This case is hereby dismissed, with
prejudice. Thomas P. Billings”
Thus, this is thus the THIRD time that the
Appellate Panel has chosen to “invoke the
Secret handshake” in a very brief decision!
Conclusion
Because Coulter has never met, or indeed ever
had any other form of contact with any of the jurists
(or police officers beyond that explained in the
Complaint), any bias against Coulter would not be
based upon any facts/issues directly related to
Coulter. Thus, it is almost certainly instead because
of bias favoring one or more of the specific Parties in
this case or, more likely Pervasive Bias which
applies to every other member of the “Justice
System” (or “Just Us System”).

27.

Examples of Pervasive Bias as described in
recent articles bv the Boston Globe
This court has considered cases alleging
Pervasive Bias against members of an oppressed
minority, who have been subjected the consequences
of Pervasive Bias — including the one which I
discovered, United States v. Morrison, 529 US 598
- Supreme Court 2000, which explains that
because the lower court struck down 42 U. S. C. §
13981 because that court:
"... concluded that Congress lacked
constitutional authority to enact the section's
civil remedy. Believing that these cases are
controlled by our decisions in United States v.
Lopez, 514 U. S. 549 (1995), United States v.
Harris, 106 U. S. 629 (1883), and the Civil
Rights Cases, 109 U. S. 3 (1883), we affirm.”
And, their assertions of Pervasive Bias were
supported by extensive research to support their
claims:
Petitioners' § 5 argument is founded on an
assertion that there is pervasive bias in
various state justice systems against victims
of gender-motivated violence. This assertion
620*620 is supported by a voluminous
congressional record. Specifically, Congress
received evidence that many participants in
state justice systems are perpetuating an
array of erroneous stereotypes and
assumptions. ...”
And, since I (quite accidentally) uncovered the (albeit
much less) extensive research by the Boston Globe
which places a Spotlight on the results of their

28.

investigation into the ubiquitous Bias benefitting
members of the “Justice System” (in and around
the Boston area), I am hoping that this court will
consider my Petition, and permit me the
opportunity to have This Court’s
determination in “my case” make a positive
impact for the victims of wrong-doings by
members of the “Just Us System” who have (on
their own) or had a friend who abused their
position/authority to permit the Member of the
Justice System to escape responsibility for the
injuries that the Member inflicted on
“civilians”!
The Boston Globe1 has been recently
running a series of articles under the Series Title
“BEHIND THE SHIELD | INSIDE THE
BOSTON POLICE DEPARTMENT” where the
Boston Globe’s Investigative Reporters have been
exposing how Pervasive Bias (which benefits
judges, lawyers and police officers) exists to
the extent that those Members of the “Just Us
System” (Judges, Lawyers and Police Officers,
essentially) frequently have completely
escaped the natural repercussions of their
actions - simply because they have been able to
I was not aware of this series in time to obtain the
1
appropriate “permissions,” and thus I am not able to include
reprints in the Appendix - but I intend to continue to seek
the necessary permissions (and hope to have them available
before a Petition for Reconsideration would be due (if required).
Meanwhile I have provided the URLs where the Boston Globe
Articles can be accessed, when a subscription is purchased.
(Currently (I believe) the Boston Globe is still running an
extremely affordable introductory subscription rate of $1.00 for
6 MONTHS of access. After the 6 months if you haven’t chosen
to cancel), the rate becomes something like $6.00 per week.)

29.

“benefit” from the abuses of discretion by other
members of the “Just Us System”!
I find it particularly interesting that this
occurs whether or not the “actions” occurred while
the Member was “on the job” at the time of their
“indiscretion” as well as whether or not the “actor” is
employed in the same “branch” (Judiciary, Law
Enforcement and/or Attorneys (whether they work in
government positions or private practice, and in civil
as well as criminal areas of practice) as their
“benefactor” who is extending the “courtesy” to them.
In the Article titled An off-duty officer
crashed into a disabled grandmother. A year
later, she’s still fighting City Hall By Andrew
Ryan and Evan Allen Globe Staff, Updated
December 19, 2020, 4:24 p.m.,
available at,
httos://www.bostonglobe.com/2020/12/19/metro
/an-off-chity-officer-crashed-into- disabledgrandmother-vear-later-shes-still-fightingcitv-hall/
they report on an elderly woman (struggling to get by
on Social Security) who was injured when an Off:
Duty Police Officer ran a red light and slammed into
her car. Officer Dwain Jackson had “borrowed”
his cruiser at the end of his shift, driven it to a
friend’s house, where he fell asleep. Four hours
later, he awakened and was “flying” through a red

30.

light, on his way to return the cruiser at the time of
his accident.
Jackson has a lengthy history, and
“borrowing” the police car is clearly not permitted.
Still though, the officers who responded to the
crash made no attempt to run tests for drugs or
alcohol, or perhaps it is more appropriately
described as consciously choosing to not
perform those tests.
Anyway, the innocent victim was left injured,
with her car totaled (and requiring her to even pay
more than $600 to have her car hauled away). What
is particularly frustrating is that the elderly
woman even hired an attorney (Atty. Green) —
who apparently readily admitted that he had
absolutely no intention of taking any steps to
recover for his client, responding to the Reporter’s
questions, saying “I was a Boston police officer
for 20 years and we don’t want to get involved,”
and before he hung up, the victim’s attorney added
“You’re wasting my time.”
What makes this article particularly
important is the admission by the private
attorney that he (as a practicing attorney and
former police officer) had no intention of taking
anv steps to actually recover for his client!
Shouldn’t Atty. Greene be concerned that the
Disciplinary Board or the Bar Association will take
steps to address his obvious “malpractice” (or worse)?!

In the next article, the Boston Globe reports
the
“Secret Courts” of Massachusetts, where the
on
powerful are frequently taken in order to help

31.

conceal their “indiscretions”. I am choosing this
article to discuss here, because the previous
article describes how Police Officers are
protected by their fellow officers, as well as
Attorneys in private practice (who willfully
“tank” their client’s case, exclusively to benefit
another member of the Justice System”.
This article describes how Justice System
Members who get “caught up” in criminal activities
frequently are assisted by Police Officer, private
(and/or prosecuting attorneys) and even Judges who
learn of their “indiscretions”.
Although the majority of the “cases” discussed
in this article concern the theft of over-time pay amounting to as much as the tens of thousands
of dollars per year for one single Officer — there
is also an account of a Judge who “accidentally”
picked up a $4,000.00 watch at Logan Airport
security - and decided to wait to “return” it
when the TSA employees would not be so busy.
In addition to telling the tale of the judge who
almost “got away” with it, Mr. Wallack describes how
the jurist and the police frequently make a deal with
their “associate”, ostensibly because it is in the
“public’s interest” , which frequently allows that
Member of the Justice System to avoid
criminal charges, and keep their pension,
simply by agreeing to repay the money that has
been proven they stole from the taxpayers’
coffers! And, while the interviewee mentioned that
this leniency is “common practice for professions like
accountants and lawyers”. I wonder if attorneys don’t
receive the benefit much, more, much frequently
than accountants!

32.

available at
https://www.bostonglobe.com/metro/2018/12/07
/charges-against-boston-police-officerdisappear-after-private-courthearing/BzDUiCcGPd9kdpaoJcu2XN/storv.ht
ml
SPOTLIGHT FOLLOW
Charges against Boston officer disappear after
private court hearing
By Todd Wallack Globe Staff, December 7, 2018, 8:15
p.m.

See also
BEHIND THE SHIELD | INSIDE THE BOSTON
POLICE DEPARTMENT
The story behind a Boston police detective who
benefited from two police coverups
By Evan Allen and Andrew Ryan Globe Staff,
Updated December 5, 2020, 4:19 p.m.
available at
https://www.bostonglobe.com/2020/12/05/metro
/story- behind-boston-police-detective-whobenefited-two-police-coverups/
and
https://www.bostonglobe.com/2020/06/24/metro
/midst-police-brutalitv-protests-boston-officerbecomes-svmbol-activists-outrage/
‘The avatar of cop violence in Boston’: Police
captain routinely crosses line, activists say
With six open internal investigations, Captain
John “Jack” Danilecki has plenty of detractors
— and some supporters

33.

By Dugan Arnett, Adam Vaccaro and Steve Annear
Globe Staff,
Updated June 24, 2020, 11:28 a.m.
and
https://www.bostonglobe.com/2021/01/02/metro
/when-boston-police-officers-fail-tell-truthdepartment-rarelv-calls-all-lielie/?s campaign=breakingnews:newsletter
BEHIND THE SHIELD
When Boston police officers fail to tell the truth, the
department rarely calls a lie a lie
By Milton J. Valencia, Andrew Ryan and Evan Allen
Globe Staff,Updated January 2, 2021, 4:46 p.m.
and
BEHIND THE SHIELD
For Boston police officers accused of crimes, legal
troubles tend to just melt away
By Evan Allen and Andrew Ryan Globe Staff,
Updated November 21, 2020, 6:16 p.m.
https://www.bostonglobe.com/2020/ll/21/metro
/boston-police-badge-shields-officerspunishmentprosecution/?p l=Article Inline Text Link
and
https://www.bostonglobe.com/202Q/10/10/metro
/within-boston-police-more-often-whiteofficers-win-awards-black-officers-getpunished/?p l=Article Inline Text Link
BEHIND THE SHIELD: INSIDE THE BOSTON
POLICE DEPARTMENT
Within Boston police, more often white officers win
the awards and Black officers get punished

34.

By Andrew Ryan and Evan Allen Globe Staff,
Updated October 10, 2020, 4:19 p.m.
and
httns://www.bostonglobe.com/2020/07/18/metro
/within-boston-nolice-denartment-complaintsap-ainst-officers-are-rarelv-confirmed-or-resultpunishment/
Within the Boston Police Department,
complaints against officers are rarely
confirmed or result in punishment
By Evan Allen, Matt Rocheleau and Andrew Ryan
Globe Staff,
Updated July 18, 2020, 3:53 p.m.
and
https://www.bostonglobe.com/2020/09/25/metro
/snffnlk-da-rollins-releases-watch-list-136area-officers-accused-misconduct/
Suffolk DA Rollins releases watch list of 136
area officers accused of misconduct
By Evan Allen, Milton J. Valencia and Andrew Ryan
Globe Staff,
Updated September 25, 2020, 10:33 p.m
and
https://www.bostonglobe.com/2020/09/3Q/metro
/dark-suffolk-da-rollins-wants-moreinformation-troubled-boston-officers/
‘In the dark.’ Suffolk DA Rollins wants more
information on troubled Boston officers
By Evan Allen, Andrew Ryan and Milton J. Valencia
Globe Staff,
Updated September 30, 2020, 6:10 p.m.

35.

CONCLUSION
It’s clear that Coulter’s Rights to Due Process
were violated in this case. It’s also clear that Coulter
is not the only person injured by these Defendants
(especially since Coulter found multiple occasions
when Biagioni had tried this type of thing before but it was only bad luck that Coulter arrived after
Biagioni learned the secret phrase (or body language)
that would signal certain member(s) of the Lexington
Police Department, that their help, would be “greatly
appreciated” (and that appreciation would be shown
in a concrete manor)
Obviously, the economic loss that I suffered as
the result of my stay at the Quality Inn & Suites in
Lexington, MA, did not bankrupt me - but, I truly
was deeply, negatively affected by it. In fact, a little
more than a year later when I was staying at a Red
Roof Inn (I refuse to stay at Quality Inns any more)
outside of Washington, I came “home” at the end of
the day to find the door to my room ajar, but when I
called out, I got no response from the housekeeper
(that I’d imagined was still working in my room).
I got on my phone and called the desk of
the motel to explain what I was seeing, and
apparent my intense anxiety was immediately
evident to the manager, as she told me to wait
outside my room, and in clear view of cars and
pedestrians, and she would immediately join
me the the door to mv room! After we both
looked under the beds and behind the shower
curtain. I found myself hugging that wonderful
middle-aged woman with all of mv strength!
Every time that the “Justice System steps
across that line and becomes the “Just Us System”
the “members” don’t just scare an old lady, they also

36.

undermine the foundations of the Halls of
Justice, and, quite honestly, make a mockery of
all of your hard-work and education!
I truly mean it when I ask that you look at
this case as your opportunity to begin the long
process of cleaning up our Courtrooms. I realize that
I am far too old to really see much of a difference.
But, that doesn t mean that the change should not
start TODAY! The death of George Floyd hopefully
will turn out to be not in vain - because, hopefully
his killers won’t be found “Not Guilty” in yet another
Bench Trial of Dirty Cops. And, hopefully, Attorney
Green will be the last attorney who takes an injured
old lady s money, only to do so with no intention of
ever even trying to get her justice! But the change
won’t happen until This Court demands that
the change occur!
Respectfully Submitted,

Jean Coulter, Petitioner

37.

